OIG Investigative Reports, Former Medical Student Convicted of Loan and Scholarship Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
United States Department of Justice
Michael J. Sullivan
U.S. Attorney
District of Massachusetts
United States Attorney's Office
John Joseph Moakley U.S. Courthouse
1 Courthouse Way, Suite 9200
Boston, MA 02210
Press Office: (617) 748-3139
December 7, 2004
PRESS RELEASE
FORMER MEDICAL STUDENT CONVICTED OF
LOAN AND SCHOLARSHIP FRAUD
Boston, MA. - A former medical student at the Tufts University School of Medicine has pleaded guilty to federal charges of loan and scholarship fraud.
United States Attorney Michael J. Sullivan; Kenneth W. Kaiser, Special Agent in Charge of the Federal Bureau of Investigation in New England; Gary E. Mathison, Regional Inspector General for Investigations of the U.S. Department of Education's Office of Inspector General; and Joseph C. Moraski, Regional Inspector General for Investigations of the U.S. Department of Health and Human Services' Office of Inspector General, announced today that ARIJIT KUMAR CHOWDHURY, a/k/a Steve Valdez, a/k/a Dale Barber, age 36, formerly of Somerville, Massachusetts, pleaded guilty today before U.S. District Judge Joseph L. Tauro to a three-count indictment charging him with fraud in connection with obtaining Federally Guaranteed Stafford Loans totaling approximately $98,865; fraud in obtaining a half-tuition scholarship from Tufts University; and making false statements to the U.S. Department of Health and Human Services in obtaining a $36,666 scholarship under the Department's Scholarships for Disadvantaged Students program.
At today's plea hearing, the prosecutor told the Court that, had the case proceeded to trial, the evidence would have proven that CHOWDHURY entered the United States from his native India in the late 1980's, on a student visa. After spending two years at Texas A&M University, CHOWDHURY left college and his visa expired. CHOWDHURY remained in the United States, however, using the name Steven Valdez and a social security number taken from an individual with a similar name. Using the name Valdez, CHOWDHURY falsely claimed to be a United States citizen, falsely claimed to be of Hispanic ethnic background, and falsely claimed to be an orphan. Based on these false representations, CHOWDHURY was admitted to Oberlin College and later to Tufts Medical School, financing his education with scholarships that were earmarked for students from disadvantaged backgrounds as well as student loans that were available only to U.S. citizens.
Judge Tauro scheduled CHOWDHURY's sentencing for March 3, 2005. CHOWDHURY has been in federal custody since his arrest in August of this year in connection with these charges. CHOWDHURY faces a maximum sentence of 5 years' imprisonment, to be followed by 3 years supervised release, and a $250,000 fine on each of the three counts to which he pleaded guilty. CHOWDHURY also faces deportation to his native India following the completion of any prison sentence that may be imposed.
The case was investigated by Special Agents of the U.S. Department of Education's Office of Inspector General, the Federal Bureau of Investigation, and the U.S. Department of Health and Human Services' Office of Inspector General. It is being prosecuted by Assistant U.S. Attorney Paul G. Levenson in Sullivan's Criminal Division.
Press Contact: Samantha Martin, (617) 748-3139
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov